       EVALUATION OF PWBA’S
     “PROHIBITED TRANSACTIONS”
        EXEMPTIONS PROCESS




PENSION AND WELFARE BENEFITS ADMINISTRATION

  _____________________________________________




                         REPORT NO.: 2E-12-001-0003
                                                                            DATE ISSUED: SEPTEMBER 21, 2000


                                                  TABLE OF CONTENTS

ACRONYMS AND GLOSSARY OF TERMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

     A. TIMELINESS IS DETERMINED ON A CASE-BY-CASE BASIS . . . . . . . . . . . . . . 4

           1. Analysis of Processing Time . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
              a. Individual Exemptions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
              b. EXPROs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
              c. Class Exemptions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

           2. Factors Involved in Timeliness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
              a. Type of Exemptions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
              b. Application Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
              c. Notification and Comments from Interested Parties . . . . . . . . . . . . . . . . . . . . . . . . . . 8

     B. PWBA CAN IMPROVE EFFICIENCY IN TWO AREAS . . . . . . . . . . . . . . . . . . . . . . 9

         1. Staffing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
             a. Staff Turnover . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
             b. Staff Knowledge and Expertise . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
             c. Case Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          2. Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
              a. Data Tracking System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
              b. Electronic Submission of Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
              c. Website Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

APPENDIX
      Agency Response. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



                                               ACRONYMS AND
                                              GLOSSARY OF TERMS

                                                          ACRONYMS

CTS                                      Case Tracking System

CY                                       Calendar Year

ERISA                                    Employee Retirement Income Security Act

FY                                       Fiscal Year

OED                                      Office of Exemption Determinations

OMB                                      Office of Management and Budget

OPM                                      Office of Personnel Management

PBGC                                     Pension Benefit Guaranty Corporation

PWBA                                     Pension and Welfare Benefits Administration

SEC                                      Securities and Exchange Commission

SOL                                      Solicitor of Labor

                                                           GLOSSARY

Individual exemption:                    An individual exemption applies only to specific individuals named or
                                         otherwise defined in the exemption.

Class exemptions:                        Class exemptions are “blanket” exemptions which permit persons to
                                         engage in similar transactions with plans in accordance with conditions of
                                         the class exemption without asking for an individual exemption.

EXPRO exemption:                         EXPRO, Class Exemption PTE 96-2, is a subset of class exemption
                                         which allows PWBA to bypass publication in the Federal Register, when
                                                                    ii
an applicant demonstrates that the proposed transaction is substantially
similar to two other individual transactions which have been allowed
within the last five years.




                    iii
                                    EXECUTIVE SUMMARY

In response to allegations which surfaced during Congressional hearings, we evaluated the Pension and
Welfare Benefits Administration’s (PWBA) timeliness and efficiency in the processing of applications for
exemptions from the prohibited transactions provisions of the Employee Retirement Income Security Act
(ERISA) of 1974.

PWBA is responsible for administering and enforcing the fiduciary, reporting and disclosure provisions
of Title I of ERISA. PWBA’s Office of Exemption Determinations (OED) administers the program for
the granting of administrative exemptions from the prohibited transaction provisions of ERISA.


 RESULTS OF EVALUATION

We concluded that timeliness is determined on a case-by-case basis, and therefore, applying rigid
deadlines to the exemption process would be counter-productive. Nonetheless, we identified two areas
where PWBA can be more efficient in the processing of exemption applications, which will increase
overall productivity.


FINDING A - Timeliness is Determined on a Case-by-Case Basis

Our analysis disclosed that the amount of time OED takes to close exemption cases has increased since
1995. We believe this increase is not indicative of untimeliness because, in our view, timeliness is
determined on a case-by-case basis. We found that the amount of time that would be timely for one
exemption might not be timely for another. Thus, we were unable to determine a uniform standard that
could be applied to all cases.

FINDING B - PWBA Can Improve Efficiency in Two Areas

    1. Recruitment and Retention. We found that OED has difficulty recruiting and retaining Pension
       Law Specialists. Our analysis disclosed that (a) OED has been understaffed for the past six
       years, and (b) there has been a high turnover rate.

    2. Information Technology. We determined that OED’s current Case Tracking System is not fully
       utilized as a management tool. The information collected provides minimal benefits to
       supervisors or analysts.




                                                   iii
 RECOMMENDATIONS

The following recommendations address efficiency. We expect that any improvements in efficiency will
potentially affect overall productivity.

1.   PWBA should work closely with its servicing personnel office to explore recruitment and retention
     options for OED.

2.   PWBA should further develop/improve OED’s information technology capacities.


 AGENCY RESPONSE AND OIG CONCLUSIONS

PWBA’s response to the OIG’s official draft report agrees with the recommendations made. The
recommendations have been resolved and will be considered closed upon OIG’s receipt of the
documentation detailed in the recommendations section of the report. PWBA’s complete response can
be found in Appendix A.




                                                   5
                                        BACKGROUND

The Pension and Welfare Benefits Administration (PWBA) of the Department of Labor is responsible
for administering and enforcing the fiduciary, reporting and disclosure provisions of Title I of the
Employee Retirement Income Security Act of 1974 (ERISA). PWBA’s Office of Exemption
Determinations administers the program for the granting of administrative exemptions from the prohibited
transaction provisions of ERISA.

 In February and March 2000, the House Committee on Education and the Workforce, Employer-
Employee Relations Subcommittee held a series of hearings on ERISA. The purpose of the hearings
was to re-examine ERISA on its 25th anniversary to determine what parts of the statute are effective and
what areas need reform. The hearings focused on the statute’s “prohibited transactions” rules. ERISA
prohibits certain classes of transactions between employee benefit plans and parties defined as “parties
of interest.” However, the law allows a transaction to be exempted from the prohibited transaction
rules if PWBA first finds that the transaction is:

    •   administratively feasible;
    •   in the interest of the plan, plan participants and plan beneficiaries; and,
    •   protective of the rights of participants and plan beneficiaries.

One of the issues raised by both the members of Congress and witnesses was the length of time PWBA
takes to process a prohibited transaction exemption. According to statistics cited in the hearing,
approximately 52 percent of “class” exemptions from the “prohibited transactions” rule take more than




                                                     4
18 months for the Department to resolve.1 Complex class exemptions were cited as even more difficult
to obtain and taking years to process. Several representatives of the private sector including mutual
fund, life insurance, and allied financial services industries testified that the exemptions process is
currently inefficient and overly burdensome, resulting in costs ultimately borne by plan participants and
beneficiaries. Representatives of labor unions and pension rights organizations testified that existing
prohibited transaction rules need to be preserved in order to minimize risks and safeguard the pensions
of America’s working families.




         1
             Subcommittee on Employer-Employee Relations, Committee on Education and the Workforce,
             U.S. House of Representatives, February 15, 2000.


                                                        5
                                 PURPOSE AND METHODOLOGY


 PURPOSE

This evaluation focused on PWBA’s timeliness and efficiency in the processing of applications for
exemptions from the prohibited transactions provisions of ERISA. Our evaluation reviewed the
following three questions:

        (1) Is PWBA timely in its processing of exemption applications?

        (2) Is PWBA efficient in processing of exemption applications?

        (3) What factors affect the processing of exemption applications?

Our goal was not to evaluate the effectiveness, or quality of, the exemption determinations.


 METHODOLOGY

Our methodology included quantitative and qualitative methods, as well as document review.

Quantitative Methods

We conducted statistical analyses of information from PWBA’s exemptions tracking database from
Calendar Years (CY) 1995 - 2000, including length of time for processing exemptions by exemption
and transaction types and by status of exemption applications. We also reviewed OED’s annual FTE
staffing numbers and turnover.

Qualitative Methods

We employed qualitative methods of interviews and case file review. We conducted interviews with
eight of OED’s professional staffers and managers regarding the exemption process and the resources it
employs to meet its mission and objectives. We reviewed twenty specific exemption cases from the last
five years as examples of cases in the exemption process. We randomly selected these cases from
above- and below-average numbers of processing days in conjunction with a judgmental criteria of
transaction types and closed status in the last five years

Document Review

We examined PWBA’s annual and 5-year plans regarding Exemptions, the Exemption Office’s annual
and 5-year budgets, and OED job descriptions and performance standards. We also:
                                                 6
(1) reviewed pertinent training manuals and directives; and (2) researched relevant legislation, regulations
and published studies on PWBA and prohibited transactions.

An entrance conference was held with PWBA officials on April 28, 2000. Field work was conducted
at PWBA’s offices at the Frances Perkins Building in Washington, D.C. A meeting was held with
PWBA on July 28, 2000, to discuss our tentative findings.

We conducted our review in accordance with the Quality Standards for Inspections published by the
President’s Council on Integrity and Efficiency.




                                                     7
                                  FINDINGS AND RECOMMENDATIONS


 FINDING A - TIMELINESS IS DETERMINED ON A CASE-BY-CASE BASIS

Our analysis disclosed that the amount of time PWBA’s Office of Exemption Determinations (OED)
takes to close exemption cases has increased since 1995. We believe this increase is not indicative of
untimeliness because, in our view, timeliness is determined on a case-by-case basis. Timeliness can be
defined as “Delivery of service to customers within a suitable time frame.” 2 In our evaluation, we
found that the amount of time that would be timely for one exemption might not be timely for another.
Thus, we were unable to determine a uniform standard that could be applied to all cases.

                                                                           1. Analysis of Processing Time

                                                               OED processes three different types of
exemptions – Individual, Class and EXPRO. An individual exemption applies only to specific individuals
named or otherwise defined in the exemption. Class exemptions are “blanket” exemptions which permit
persons to engage in similar transactions with plans in accordance with conditions of the class exemption,
without asking for an individual exemption. In 1996 PWBA approved class exemption PTE 96-62,
which allows the agency to bypass publication in the Federal Register, when an applicant demonstrates
that their proposed transaction is substantially similar to two other individual transactions which have
been allowed within the last five years. Applications that fall under Class Exemption PTE 96-62 are
called EXPROs.
                                                                                                    During
the period CYs 1995 through 2000, OED reviewed over 1,100 individual, class and EXPRO exemption
applications from the prohibited transaction rules of ERISA. OED generally has 200 applications
pending at any given time. As of June 5, 2000, OED had 149 outstanding (open) cases.

                                                                                  a. Individual Exemptions

                                                                 During the period CYs 1995 through
2000, OED opened and closed a total of 834 individual exemption applications. As shown by the
following graph, during this time period, the average length of time to close individual exemption
applications has steadily risen from approximately 4 months in 1995 to over 12 months in 2000. The
median has also risen but at a lower rate.




           2
               Performance Measurement: Timeliness, Efficiency, Quality, United States Department of Agriculture
 Auditor               Training Institute, Undated Manual.


                                                            8
                                   Elapsed Days for Individual Exemptions
                                     Mean and Median Days, CY 1995 - 2000
                                   400
                                                                                                Mean: 276       Mean:
                                                                                  Mean: 277     Median: 196     367
                                                                                  Median: 210                   Median:
                                                                                                                257
                    Elapsed Days

                                   300                              Mean: 230
                                                      Mean: 188     Median: 196
                                                      Median: 177

                                   200   Mean: 113
                                         Median: 96



                                   100

                                    0
                                          1995          1996        1997     1998                 1999        2000
                                                                    Calendar Year
                                                                    Median               Mean



The difference between the mean and the median indicates the existence of outlying cases which pull the
averages up.
                                                                                                 As
previously stated, we do not believe that this increase is indicative of untimeliness. One possible
explanation for the increase is the creation of EXPRO in 1996. OED created EXPRO to expedite the
processing of exemption cases similar to individual exemptions granted by OED in the last five years.
Thus, individual exemption applications that would have kept the individual exemption average steady or
even decreased it are now classified as EXPROs.

b. EXPROs

Meanwhile, of the 178 EXPRO applications closed since 1996, the average for closing has consistently
remained under 70 days. The median number of days was higher in each year, between 76 - 81 days,
indicating that about half of EXPROs were closed well under 78 days.

c. Class Exemptions

OED opened and closed 11 class exemption cases during the period CY 1995 through 2000. The
processing times for these cases varied. While averaging the cases results in a mean of 431 days (14
months) and a median of 420 days, these numbers are misleading given the range of deviation and the
small number of cases.




                                                                             9
The following graph illustrates the variance of case processing times.




There were 3 class exemption applications in 1997 and 1998 which closed well above average at 768,
863 and 1,043 days, respectively. Our examination of two of these three applications did not identify
any unreasonable delays by OED.

2. Factors Involved in Timeliness

The time involved in processing exemption applications varies greatly with each case. OED believes that
each exemption case is unique, thereby making it impossible for OED to set arbitrary deadlines for the
exemption process. Numerous factors affect the time OED needs to process an exemption and many of
these factors are beyond the analyst’s control.

a. Type of exemption

The type of exemption -- Individual, Class or EXPRO – influences the length of time involved in the
exemption process, with class exemptions generally taking the longest to process and EXPRO’s the
shortest. (For a definition of the three exemption types, please refer to the Acronyms and
Glossary Section.)



                                                    10
b. Application review

    •    Fact Finding

         Once a case is assigned, the analyst begins conducting research and gathering additional
         information to clarify issues and keep the case moving forward. Original applications rarely
         contain all the information an analyst needs to make an exemption determination. Most of the
         analysts and managers we interviewed stated that the most time consuming part of the process
         is negotiating with the applicant for additional information.

    •    Tentative Denial Letters

         Analysts do have the option of issuing a tentative denial letter (TD). A TD gives the applicant
         20 days to give OED notice that it intends to provide additional information and then 30 days
         to provide it, before OED will administratively close their case. The use of the TD letters
         varies among analysts. The pension law specialists we interviewed believed that if OED were
         stricter about using TD letters, it would only result in them closing and then re-opening the
         same cases under different application numbers.

    •    Complexity of The Issue

         When asked why the amount of time OED takes to process exemptions has increased, six of
         the eight analysts and managers we interviewed responded that proposed transactions have
         become more complex. In the early 1990's many pension plans moved from defined benefit to
         defined contribution. This opened the door for new, innovative and potentially risky
         transactions, ranging from de-mutualization to foreign securities lending and synthetic
         Guaranteed Insurance Contracts (GICs). Many of these transactions fall under ERISA’s
         prohibited transaction rules and require an exemption to move forward.

    •    Policy and Legal Issues

         In addition to getting additional factual information from the applicant, the analyst also has to
         examine the policy and legal questions raised by the application. In complex cases, the analyst
         may need a policy decision from management or a legal decision from the Solicitor’s Office.
         OED must carefully examine the potential impact of precedent-setting exemptions because
         OED policy must be uniformly applied to all exemption applications.

         An analyst may also have to wait for additional information from agencies outside of DOL,
         such as the Securities Exchange Commission, Internal Revenue Service or the Pension
         Benefits Guaranty Corporation. OED believes that it is more important to plan participants,
         that OED make the right determination rather than a quick determination.

                                                   11
c. Notification and Comments from Interested Parties

Individual, Class and EXPRO exemptions each involve a written notification and comment period that
informs interested parties of the exemption request and allows interested parties to submit written
comments on the proposed exemption.

Conclusion

After examining case files and interviewing OED management and staff, we conclude that each
application is unique, and applying rigid deadlines to the exemption process would be counter-
productive.




                                                  12
 FINDING B - PWBA CAN IMPROVE EFFICIENCY IN TWO AREAS

The second objective of our study was to determine whether OED was processing exemptions in an
efficient manner. An efficiency measure assesses “the production of a service or product at a
specified cost, while meeting quality and timeliness goals.”3 Due to a lack of data on staff hours
worked per case and on other assigned projects, we were unable to arrive at a quantitative measure of
efficiency. However, after interviewing OED staff, analyzing aggregate case data and reviewing case
files, we found that OED could improve efficiency in two areas:

1) We found that OED has difficulty recruiting and retaining Pension Law Specialists. Our analysis
disclosed that (a) OED has been understaffed for the past six years, and (b) there has been a high
turnover rate.

2) We determined that OED’s current Case Tracking System is not fully utilized as a management tool.
The information collected provides minimal benefits to supervisors or analysts.

1. Staffing

a. Staff Turnover

Since FY 1994, there have been nine departures of Pension Law Specialists from OED, along with four
hires. The following figure illustrates the gap between the larger number of authorized Full Time
Equivalent (FTE) staff to the smaller number of actual FTEs which has existed in the past six fiscal
years.




        3
            Ibid.
                                                  13
Four of the managers and analysts we interviewed spoke of the challenges in retaining specialists
because of the competitive salaries elsewhere. OED has frequently been in the position of training
specialists, only to have them lured away by more lucrative offers from private financial and legal
institutions. Some specialists must also consider their law school loans when deciding whether to leave
OED.

The salary gap between OED and the private sector can be illustrated by the following. A GS-9
pension law specialist who has recently graduated from law school, earns a starting salary of $35,000
with PWBA, whereas the median for new, private-sector attorneys in the Washington DC area was
$82,000 in 1999.4 After entry level OED analysts are trained for two years, they are typically
promoted to GS-12, with salaries beginning at $52,000. At this juncture, however, they become even
more valuable in the private sector, where departing OED specialists with two years’ experience can
earn upwards of $80,000 to $100,000.

b. Staff Knowledge and Expertise

Staff turnover affects the pool of OED’s knowledge and expertise. OED recently lost a Pension Law
Specialist with over a decade of expertise. It is unlikely that an individual replacing the specialist will be
able to work at the same level of independence, proficiency, and efficiency.

OED staffers must evaluate a wide range of proposed transactions. The applicant may be the person
who developed the new product; therefore except for the applicant, no one else is familiar with it. A
team of lawyers and financial experts may have developed and drafted the proposal; however, a single
OED analyst is responsible for analyzing the proposal, identifying issues, and conducting all the research
involved, before issuing a determination.

c. Case Management

Pension law specialists assigned to class exemptions generally work on two or three cases concurrently,
while those assigned to individual exemptions average twenty cases. The demands of competing
workloads affect the processing of a case. Analysts’ work responsibilities often cross-cut sections
within OED.

Supervisors stated that they currently monitor case activity by conferring with analysts on a regular basis.
One case management issue that arose was about how information could flow easier between different
levels within OED and the feedback that analysts can elicit from supervisors. One analyst suggested that
supervisors set aside a specified time each week for analysts to make an appointment to brief them. The


         4
             “Starting Salary for Associates is Up,” The National Law Journal, Volume 21, No. 51, August 16, 1999.
                                                          14
analyst suggested that it would be even more helpful if analysts could brief supervisor/section
chief/director simultaneously.




                                                    15
2. Information Technology

a. Data Tracking System

OED’s electronic Case Tracking System (CTS) is currently a DOS-based database which records 30
fields of data. Our evaluation determined that OED’s current CTS is not fully utilized as a management
or analyst tool. While analysts may view the case tracking system on their desktops, they do not input
any data of their own. Written and phone correspondence between PWBA and the applicant appears
in the case log file, but is not logged into the database. Short of reviewing documents in exemption case
files, it is difficult to gauge many facets of case activity, such as the dates an application is in OED’s
hands and the dates it is out of OED’s control.

Staff held differing viewpoints on the utility of the current Case Tracking System in their work. There
were both managers and analysts who regarded the current system as adequate and who saw no benefit
to its enhancement. On the other hand, there were also those who felt that the Case Tracking System
could be further developed as a tool for analysts and for management.
Currently, analysts keep a handwritten contact log in each case file. This could be eliminated by allowing
analysts to enter the information into a Management Information System. The system could also allow
analysts to enter case status notes. Between the contact log and the case notes a manager could check
the status of a case without locating an analyst or manually reviewing a case file. We also noticed in
several of the cases we reviewed, that when a case was “high profile” or was taking a long time to
complete, an analyst might create a memo or document that contained a chronology of events. Through
simple data tracking enhancements, this type of information could simply be printed when needed instead
of reconstructed by the analysts.

One analyst broached the possibility of a “tickler” system for reminding analysts of impending dates, and
for documenting in brief summary form the various meetings held or pieces of correspondence received.
The analyst suggested that an integrated system might be helpful, but should not be mandated, for
analysts and managers to organize and stay current on the details and dates of a case. Currently,
individual pension law specialists may utilize their own paper or electronic calenders and reminders, but
an integrated system would provide more uniformity and consistency across the office. Because of the
intensity of work involved in data input, the Case Tracking System should be enhanced to allow
specialists to input information into a discrete section of their own, without being able to alter the
remainder of the existing tracking system. The analyst we interviewed noted that training for such an
enhancement would be important.

PWBA plans to modernize the OED tracking system in the third quarter of Fiscal Year 2001. The
already scheduled modernization affords OED the opportunity to upgrade to a Management Information
System. While the universe of exemption cases is relatively small and has declined
in recent years, current MIS systems can provide management with needed state-of-the-art tools to

                                                    16
maximize timeliness and efficiency.




                                      17
b.   Electronic Submission of Information

Four of the eight staff and managers we interviewed believe that use of electronic submission of
information and applications would be helpful. Electronic submissions allow analysts to easily transfer
text without having to re-type, as well as quickly search lengthy documents. Two of the pension law
specialists we spoke with have begun to ask for electronic copies of documents, particularly in complex
cases. One of OED’s primary concerns about electronic submission of information is that of viruses
entering the OED/PWBA system.

c. Website Information

An analyst and a manager commented that the PWBA website is useful but does not include additional
information that may be helpful. A master list of all but the most recent EXPRO authorizations is on the
website, as are virtually all the advisory opinions. One manager we interviewed felt that the archival of
all individual exemptions on the site, searchable by name and number, would be helpful for potential or
current applicants looking for guidance on crafting an exemption application.



 RECOMMENDATION #1:

 We recommend that:

 PWBA work closely with its servicing personnel office to explore recruitment and retention
 options for OED (i.e., recruitment bonuses, retention allowances, special salary rates and
 repayment of student loans).




PWBA Response

“With respect to recruiting and retaining Pension Law Specialists, we agree that becoming fully
staffed would have a positive effect on the overall productivity of OED. We note, however, that
for many qualified candidates, none of the hiring/retention incentives currently available through
the Department of Labor are rewarding enough to compete with the financial incentives offered
by law firms and other private sector employers. Nevertheless, we will continue to use the
available options and will work with our servicing personnel office to try to attract more
candidates who are qualified to fill the positions.”




                                                    18
OIG Conclusion

We consider this recommendation to be resolved. The recommendation will be closed pending our
receipt of documentation that PWBA has thoroughly assessed the feasibility of recruitment and retention
options, including as appropriate, any actions PWBA will take.

The following are some recruitment and retention options that the Office of Personnel Management
(OPM) offers. Additional information regarding incentives is available on OPM’s website.

    1. Recruitment Bonus. A recruitment bonus is a lump sum payment of up to 25 percent of
    basic pay that an agency may pay to an employee newly appointed to a position that might
    otherwise be difficult to fill. In return the employee must sign an agreement to fulfill a specified
    period of service with the agency.

    2. Retention Allowance. Retention allowances are continuing (i.e. biweekly) payments of up
    to 25 percent of basic pay that an agency may pay to help retain an employee. The agency
    must determine that a) the unusually high or unique qualifications of the employee or a special
    need of the agency for the employee’s services makes it essential to retain the employee, and
    b) the employee would likely leave the Federal Government (including retirement) in the
    absence of a retention bonus.

    3. Special Salary Rates. Special Salary Rates may be authorized when OPM finds that the
    government’s retention or recruitment efforts are, or are likely to become, significantly
    handicapped due to rates of pay offered by non-federal employers being significantly higher
    than those payable by the government. To qualify for a Special Salary Rate an agency must
    complete a Form 13-97. Normally a requestor would need to coordinate with other agencies
    who employ the same Occupational Series.

    4. Repayment of Student Loans. Public Law 106-180 allows agencies to help repay student
    loans to recruit and/or retain highly qualified professional, technical or administrative personnel.
    In exchange, an employee must agree in writing to remain in the service of the agency for at
    least three years. OPM has published proposed regulations for the loan repayment program.
    The Department of Labor is currently drafting an implementation plan.

Please provide the requested written documentation to this office by February 15, 2001.




                                                     19
 RECOMMENDATION #2:

 We recommend that:

 PWBA develop/improve OED’s information technology capacities.



PWBA Response

“The OIG’s second recommendation concerned further developments/ improvements to OED’s
information technology capacities. As noted in the draft report, PWBA had already determined
to modernize and upgrade the Case Tracking System beginning in the third quarter of FY 2001.
As part of PWBA’s response to the Government Paperwork Elimination Act, we are exploring
greater use of electronic submission of information and enhancements to PWBA’s website.
Additional funding to support these information technology initiatives will be requested as part of
the agency’s FY 2002 budget package.”

OIG Conclusion

We consider this recommendation to be resolved. The recommendation will be closed pending our
receipt of PWBA’s modernization plan for the OED Case Tracking System.

Our evaluation identified the need for a well-designed upgrade/enhancement of OED’s current tracking
system to improve efficiency and productivity. While we would like to see the modernization occur
sooner, we understand that PWBA plans to begin working on the OED Case Tracking System upgrade
beginning in the third quarter of FY 2001.

As PWBA has indicated, OED staff and managers have periodically worked with PWBA’s information
technology division on developing technology enhancements. OED should assess the feasibility of
developing substantive changes to the current design of the Case Tracking System, as the system
undergoes modernization by: 1) assessing the feasibility of upgrading the system to allow analysts to
enter information directly into a section of the Management Information System (e.g., for documenting
summaries of case status notes, the various meetings held or pieces of correspondence received); and 2)
assessing the possibility of a “tickler” system for reminding analysts of impending dates.

Please provide written documentation to this office regarding PWBA’s modernization plan for
OED’s Case Tracking System by July 16, 2001.



                                                  20
Contributors to this report:

Lifang Chiang, Project Leader
Beth McNeill
Barbara Farrell
Constance Crosby
Dennis Raymond

Gregory D. Simmons, Director, Division of Evaluations and Inspections




                                                 21
  APPENDIX
Agency Response




      22
